<html>
<title> - H.R. 1794 and H.R. 2040</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
                        H.R. 1794 and H.R. 2040

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                         Tuesday, June 24, 2003

                               __________

                           Serial No. 108-31

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

87-903              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

                    SUBCOMMITTEE ON WATER AND POWER

                   KEN CALVERT, California, Chairman
        GRACE F. NAPOLITANO, California, Ranking Democrat Member

George Radanovich, California        Calvin M. Dooley, California
Greg Walden, Oregon                  Jay Inslee, Washington
Thomas G. Tancredo, Colorado         Raul M. Grijalva, Arizona
J.D. Hayworth, Arizona               Dennis A. Cardoza, California
Tom Osborne, Nebraska                George Miller, California
Rick Renzi, Arizona                  Ciro D. Rodriguez, Texas
Stevan Pearce, New Mexico            Joe Baca, California
Devin Nunes, California              Nick J. Rahall II, West Virginia, 
Richard W. Pombo, California, ex         ex officio
    officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 24, 2003....................................     1

Statement of Members:
    Calvert, Hon. Ken, a Representative in Congress from the 
      State of California........................................     2
        Prepared statement of....................................     2
    Napolitano, Hon. Grace F., a Representative in Congress from 
      the State of California....................................    12

Statement of Witnesses:
    English, Jim, General Manager, San Juan Water District, 
      California.................................................     9
        Prepared statement on H.R. 1794..........................    11
    Rinne, William, Deputy Commissioner, Bureau of Reclamation, 
      U.S. Department of the Interior............................     3
        Prepared statement on H.R. 1794..........................     5
        Prepared statement on H.R. 2040..........................     5
    Rockholm, Hon. Rocky, Mayor, City of Roseville, California...     6
        Prepared statement on H.R. 1794..........................     7

Additional materials supplied:
    Johanns, Hon. Mike, Governor, State of Nebraska, Letter 
      submitted for the record on H.R. 2040......................    20


  LEGISLATIVE HEARING ON H.R. 1794, TO AUTHORIZE THE SECRETARY OF THE 
   INTERIOR TO CONSTRUCT AND REHABILITATE FEDERAL WATER SUPPLY LINES 
 ASSOCIATED WITH FOLSOM DAM IN CALIFORNIA, AND FOR OTHER PURPOSES; AND 
  H.R. 2040, TO AMEND THE IRRIGATION PROJECT EXTENSION ACT OF 1998 TO 
EXTEND CERTAIN CONTRACTS BETWEEN THE BUREAU OF RECLAMATION AND CERTAIN 
   IRRIGATION WATER CONTRACTORS IN THE STATE OF WYOMING AND NEBRASKA.

                              ----------                              


                         Tuesday, June 24, 2003

                     U.S. House of Representatives

                    Subcommittee on Water and Power

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:09 p.m., in 
room 1324, Longworth House Office Building, Hon. Ken Calvert, 
Chairman of the Subcommittee, presiding.
    Present: Representatives Calvert, Osborne, Renzi, Pearce 
and Napolitano.
    Mr. Calvert. The oversight hearing by the Subcommittee on 
Water and Power will come to order.
    The Subcommittee is meeting today to hear testimony on H.R. 
1794, a Bill to authorize the Secretary of the Interior to 
construct and rehabilitate Federal water supply lines 
associated with Folsom Dam in California, and H.R. 2040, a bill 
to amend the Irrigation Project Extension Act of 1998 to extend 
certain contracts between the Bureau of Reclamation and certain 
irrigation water contractors in the States of Wyoming and 
Nebraska.
    Under Rule 4(g) the Chairman and the Ranking Minority 
Member can make opening statements. I shall begin mine.

STATEMENT OF THE HON. KEN CALVERT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Calvert. Our Subcommittee continues to seek balanced 
and integrated water management approaches that ensure water 
and power available for communities in the West. Today we will 
focus our attention on two bills that improve the dependability 
and security of the water infrastructure for long-term use and 
recognize collaborative efforts on protecting endangered 
species habitat.
    H.R. 1794, introduced by our distinguished colleague, John 
Doolittle, authorizes design and construction of a water supply 
pipeline and the rehabilitation of an existing Federal water 
pipeline at Folsom Dam. I look forward to hearing from the 
affected communities on how they are already working on these 
pipelines, and their response to Federal questions over cost 
share and how the project's costs will be allocated.
    H.R. 2040, introduced by our distinguished Nebraska 
colleague, Mr. Osborne, extends specific water contracts 
between the Bureau of Reclamation and water contractors in 
Nebraska and Wyoming. This legislation responds to continuing 
work on a multiparty agreement aimed at restoring habitat for 
endangered species on the Platte River. While these good faith 
efforts take place, the irrigators have asked for repayment 
certainty until a clear regulatory water-use roadmap is in 
place.
    These bills attempt to find common-sense solutions to water 
problems facing two regions of our country. I thank our 
witnesses for coming here today, and look forward to hearing 
from them on these important bills.
    [The prepared statement of Mr. Calvert follows:]

           Statement of The Honorable Ken Calvert, Chairman, 
      Subcommittee on Water and Power, on H.R. 1794 and H.R. 2040

    Our Subcommittee continues to seek balanced and integrated water 
management approaches that ensure water and power are available for 
communities in the west. Today, we will focus our attention on two 
bills that improve the dependability and security of the water 
infrastructure for long-term use, and recognize collaborative efforts 
on protecting endangered species habitat.
    H.R. 1794, introduced by our distinguished colleague, John 
Doolittle, authorizes the design and construction of a water supply 
pipeline and the rehabilitation of an existing federal water pipeline 
at Folsom Dam, California. I look forward to hearing from the affected 
communities on how they're already working on these pipelines and their 
response to federal questions over cost share and how the project's 
costs will be allocated.
    H.R. 2040, introduced by our distinguished Nebraska colleague, Mr. 
Osborne, extends specific water contracts between the Bureau of 
Reclamation and water contractors in Nebraska and Wyoming. This 
legislation responds to continuing work on a multi-party agreement 
aimed at restoring habitat for endangered species on the Platte River. 
While these good faith efforts take place, the irrigators have asked 
for repayment certainty until a clear regulatory, water-use roadmap is 
put in place.
    These bills attempt to find common sense solutions to water 
problems facing two regions of our country. I thank our witnesses for 
coming here today, and look forward to hearing from them on these 
important bills.
                                 ______
                                 
    Mr. Calvert. Mrs. Napolitano is going to be here shortly, 
so in the interim, Mr. Osborne, if you would like to make an 
opening statement, you are recognized.
    Mr. Osborne. I do not have an opening statement. I will 
just reserve my comments when it is time to discuss H.R. 2040.
    Mr. Calvert. Certainly. What I will do now is I will start 
recognizing the panel, and when Mrs. Napolitano arrives, we 
will certainly give her time for her opening statement.
    I would now like to recognize our first panel, William 
Rinne, Deputy Commissioner, Bureau of Reclamation. With him is 
the Honorable Rocky Rockholm, the Mayor of the City of 
Roseville; and Mr. Jim English, the General Manager, San Juan 
Water District, California.
    With that, Mr. Rinne, you are recognized, and we are under 
the 5-minute rule loosely. Try to keep it within the 5 minutes. 
We would appreciate that.

  STATEMENT OF WILLIAM RINNE, DEPUTY COMMISSIONER, BUREAU OF 
          RECLAMATION, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Rinne. Thank you, Mr. Chairman. Before I begin, I would 
like to request that my written statements be submitted for the 
record.
    Mr. Calvert. Without objection, so ordered.
    Mr. Rinne. My name is Bill Rinne, and I am Deputy 
Commissioner for the U.S. Bureau of Reclamation. I am pleased 
to provide the Administration's views on H.R. 1794 and H.R. 
2040.
    Let me begin with H.R. 1794, a bill to authorize the 
Secretary of the Interior to design and construct a parallel 
water supply line connecting the pumping plant at the base of 
Folsom Dam in California to the Hinkle Wye serving the City of 
Roseville and the San Juan District, California.
    This bill would also authorize the Secretary to 
rehabilitate the approximately three-quarter mile long, 84-inch 
diameter above-ground water supply line connecting Folsom Dam 
Pumping Facility to the Hinkle Wye where the delivery system 
splits into separate pipelines to serve the San Juan and the 
City of Roseville.
    While the Administration understands the communities' 
interest in these projects, we do not believe it is in the 
Federal Government's responsibility to fund a secondary 
pipeline, and therefore, cannot support H.R. 1794.
    The United States owns and Reclamation operates the 84-inch 
steel North Fork Pipeline, which is the sole conveyance of 
Folsom Reservoir water to both the District and the City. The 
United States is responsible for maintaining the existing 
pipeline. However, the Bureau of Reclamation can only meet this 
responsibility with permission from the City and District to 
interrupt pipeline flow long enough to perform maintenance.
    The City and the District have grown substantially since 
the pipeline and Folsom Dam were constructed 50 years ago. In 
working with the City and the District since 2001, they have 
informed us that the community growth leaves them without an 
adequate year-round backup resource to sustain a water pipeline 
interruption for more than approximately 24 hours. This 
constraint directly interferes with the Bureau's ability to 
perform maintenance on the pipeline.
    We agree that the lack of reserve capacity interferes with 
maintenance and creates a continuity of supply issue that needs 
to be addressed. Again, the responsibility for pipeline 
maintenance belongs to the Bureau of Reclamation, while the 
responsibility for providing reserve capacity to allow for 
maintenance belongs to the City and the District.
    Following a preliminary inspection in 2001, Reclamation met 
with the District and the City to discuss a parallel pipeline 
as a possible solution in providing water supply during 
rehabilitation work. At that time, officials from the District 
and the City indicated they intended to jointly fund 
installation of the parallel pipeline. Reclamation supported 
that approach and indicated it would cooperate in the process, 
a position we continue to support.
    The Administration understands that a solution to this 
issue must be developed, but if the District and the City 
determine that they need a parallel pipeline or some other 
method of reserve capacity, they should be responsible for its 
construction. Reclamation understands that it is responsible 
for reasonable maintenance of the existing pipeline and stands 
behind that commitment.
    We look forward to continuing cooperation with City, 
District and legislative sponsors in developing alternatives 
that may prove a more efficient means of meeting the 
community's water needs.
    I would now like to turn my attention to H.R. 2040, which 
would amend the Irrigation Project Extension Act of 1998, to 
require the Secretary of Interior to extend each of the water 
service repayment contracts for the Glendo Unit of the Missouri 
River Basin Project for a period of 2 years until December 
31st, 2005 or for the term of the cooperative agreement entered 
into by the States of Wyoming, Nebraska, Colorado and the 
Secretary of Interior.
    Mr. Chairman, the Department supports to H.R. 2040 language 
as written. On July 1st, 1997 the States of Wyoming, Nebraska 
and Colorado and the United States Department of Interior 
entered into a cooperative agreement for Platte River research 
and other efforts relating to endangered species habitats along 
the Central Platte River in Nebraska. The purpose of the 
cooperative agreement is to jointly undertake a basin-wide 
effort to improve the habitat of four threatened and endangered 
species along the Platte River. The cooperative study is 
designed to help develop a basin-wide program to be the 
reasonable and prudent alternative to minimize the effects of 
existing and new water-related activities in the Platte Basin.
    Glendo Dam and Reservoir system is one of several Bureau of 
Reclamation dam and reservoir systems on the North Platte River 
that operate as an integrated system. The Bureau of Reclamation 
has been consulting under the Endangered Species Act on the 
operations of the entire reservoir system.
    To successfully renew long-term contracts for Glendo 
Reservoir water will require the completion of Endangered 
Species Act consultation on the Bureau of Reclamation's North 
Platte River system operation. This consultation will continue 
until the cooperative agreement and study have been completed. 
The final programmatic environmental impact statement is 
scheduled to be completed by November 2004, with a record of 
decision to follow in December 2004. H.R. 2040 will allow 
Reclamation to renew the Glendo contracts once the record of 
decision is issued.
    Mr. Chairman, this completes my remarks, and I would be 
happy to answer any questions.
    [The prepared statement of Mr. Rinne on H.R. 1794 follows:]

Statement of William Rinne, Deputy Commissioner, Bureau of Reclamation, 
             U.S. Department of the Interior, on H.R. 1794

    My name is Bill Rinne, and I am Deputy Commissioner for the U.S. 
Bureau of Reclamation. I am pleased to provide the Administration's 
views on H.R. 1794, a bill to authorize the Secretary of the Interior 
to design and construct a parallel water supply line connecting the 
pumping plant at the base of Folsom Dam in California to the Hinkle Wye 
serving the City of Roseville, California, and the San Juan Water 
District, California.
    This bill would also authorize the Secretary to rehabilitate the 
approximately three-quarter mile long, 84-inch diameter, above ground 
water supply line connecting the Folsom Dam pumping facility to the 
Hinkle Wye, where the delivery system splits into separate pipelines to 
serve the San Juan Water District (District) and the City of Roseville 
(City). While the Administration understands the communities' interest 
in these projects, we do not believe it is the Federal Government's 
role to fund a secondary pipeline and therefore cannot support H.R. 
1794.
    The United States owns, and Reclamation operates, the 84-inch steel 
North Fork Pipeline, which is the sole conveyance of Folsom Reservoir 
water to both the District and the City. It is our understanding that 
the United States is responsible for maintaining the existing pipeline. 
However, the Bureau of Reclamation can only meet this responsibility 
with permission from the City and District to interrupt pipeline flow 
long enough to perform maintenance.
    The City and District have grown substantially since the pipeline 
and Folsom Dam were constructed 50 years ago. In working with the City 
and the District over the past few years, they informed us that the 
community growth leaves them without an adequate year-round backup 
resource to sustain a water pipeline interruption for more than 
approximately 24 hours. This constraint directly interferes with 
Reclamation's ability to perform maintenance on the pipeline.
    We agree that the lack of reserve capacity interferes with 
maintenance and creates a continuity of supply issue that needs to be 
addressed. However, it is our understanding that, while the 
responsibility for pipeline maintenance belongs to the Bureau of 
Reclamation, responsibility for providing reserve capacity to allow for 
maintenance belongs to the City and District.
    Following a preliminary inspection in 2001, Reclamation met with 
the District and City to discuss a parallel pipeline as a possible 
solution to providing water supply during rehabilitation work. At that 
time, officials from the District and the City indicated they intended 
to jointly fund and install the parallel pipeline. Reclamation 
supported that approach and indicated it would cooperate in the 
process, a position we continue to support.
    In summary, the Administration understands that a solution to this 
issue must be developed, but if the District and the City determine 
that they need a parallel pipeline or some other method of reserve 
capacity, they should be responsible for its construction. Reclamation 
understands that it is responsible for reasonable maintenance of the 
existing pipeline and stands behind that commitment. We look forward to 
continuing cooperation with City, District and legislative sponsors in 
developing alternatives that may prove a more efficient means of 
meeting the community's water needs.
    That concludes my prepared remarks. I would be pleased to answer 
any questions.
                                 ______
                                 
    [The prepared statement of Mr. Rinne on H.R. 2040 follows:]

Statement of William Rinne, Deputy Commissioner, Bureau of Reclamation, 
             U.S. Department of the Interior, on H.R. 2040

    Thank you for the opportunity to appear today to provide the 
Administration's views on H.R. 2040.
    H.R. 2040 would amend the Irrigation Project Contract Extension Act 
of 1998 to require the Secretary of the Interior to extend each of the 
water service or repayment contracts for the Glendo Unit of the 
Missouri River Basin Project for a period of 2 years until December 31, 
2005, or for the term of the cooperative agreement entered into by the 
states of Wyoming, Nebraska, Colorado and the Secretary of the 
Interior.
    Mr. Chairman, the Department supports the H.R. 2040 language as 
written.
    On July 1, 1997, the States of Wyoming, Nebraska, and Colorado 
entered into a cooperative agreement for Platte River research and 
other efforts relating to endangered species habitats along the Central 
Platte River in Nebraska with the United States Department of the 
Interior. The purpose of the cooperative agreement is to jointly 
undertake a basin-wide effort to improve the habitat of four threatened 
and endangered species that use the Platte River. Successful completion 
of the cooperative study will lead to development of a basin-wide 
program that will serve as the reasonable and prudent alternative to 
offset the effects of existing and new water related activities in the 
Platte River Basin.
    Glendo Dam and Reservoir is one of several Bureau of Reclamation 
dams and reservoirs on the North Platte River that operate as an 
integrated system. The Bureau of Reclamation has been proceeding with a 
process to consult under the Endangered Species Act on the entire 
reservoir system operations.
    To successfully renew long-term contracts for Glendo Reservoir 
water will require the completion of Endangered Species Act 
consultation on the Bureau of Reclamation's North Platte River system 
operations. Such consultation will not be completed until after the 
final programmatic environmental impact statement and study have been 
completed. The final programmatic environmental impact statement is 
scheduled to be completed by November 2004, with the record of decision 
to follow in December 2004. H.R. 2040 will allow Reclamation to proceed 
with completing the renewal of the Glendo contracts following the 
record of decision.
    Mr. Chairman, in summary, the Department supports the legislation 
for extension of the Glendo contracts provided by H.R. 2040. I would be 
happy to answer any questions.
                                 ______
                                 
    Mr. Calvert. I thank the gentleman.
    Testifying on H.R. 1794 are the Hon. Rocky Rockholm, Mayor 
of the City of Roseville, and Mr. Jim English, General Manager 
of San Juan Water District. First we will recognize Mayor 
Rockholm.

    STATEMENT OF ROCKY ROCKHOLM, MAYOR, CITY OF ROSEVILLE, 
    CALIFORNIA, ACCOMPANIED BY DEREK WHITEHEAD, DIRECTOR OF 
           ENVIRONMENTAL UTILITIES, CITY OF ROSEVILLE

    Mr. Rockholm. Mr. Chairman and honorable members of this 
Committee, my name is Rocky Rockholm. I am the Mayor of 
Roseville, California.
    I appreciate the opportunity to appear here before you 
before this Committee today concerning H.R. 1794, the 
authorization for construction of a parallel water supply line 
and rehabilitation of an existing Federal supply line.
    Thank you for holding this hearing today. The citizens of 
Roseville and our region need your help in providing a safe and 
reliable water supply for our region. I want to thank 
Congressman John Doolittle for his leadership and for 
introducing H.R. 1794. Roseville is proud to have Congressman 
Doolittle represent our region for over a decade, and we 
appreciate his commitment to our City, our region, the State of 
California and the United States of America.
    Roseville is located 20 miles east of Sacramento, and 
Interstate 80 divides the City. The current population is 
approximately 86,000 residents, which is expected to grow to 
110,000 residents by the year 2010, which is our build-out 
according to general and specific plans.
    Our community has experienced unprecedented growth during 
the past decade. The City has efficiently and effectively kept 
pace with providing a high level of service in spite of 
significant pressures of rapid growth, safeguarded local and 
regional history through planning and delivering critical 
projects that benefited the long economic health of the region. 
An example would be the Union Pacific rail yard, which is the 
largest rail yard west of the Mississippi River, and the Maidu 
Interpretive Center, which shows a history of the Maidu Indians 
in our area.
    The City's drinking water system relies heavily on a single 
84-inch pipe owned and operated by the Bureau of Reclamation. 
The pipeline can deliver up to 216 million gallons of water per 
day, 96 million gallons for Roseville and 120 million gallons 
for San Juan. The pipeline provides service to over 250,000 
people each day. It is the only raw water supply line for the 
City in San Juan Water District. Without it we would not be 
able to provide water to the citizens of our region.
    Jim English, the General Manager of San Juan Water 
District, will describe the specific findings of the pipeline 
inspection conducted in the year 2000. An important point to 
remember: if this pipeline fails, it would have a catastrophic 
effect on our region's viability.
    There are two reasons for the parallel pipeline. 
Rehabilitation of the existing pipeline would require it to be 
taken out of service for several weeks or even months, leaving 
both agencies without water. The parallel pipeline is the only 
way service can be maintained during rehabilitation.
    The parallel pipeline would provide a redundant water 
supply for 250,000 customers. This would improve the 
reliability and security of the water supply significantly. It 
is essential that we update our water systems by building in 
redundancies.
    As a California mayor I am sensitive to water usage and 
believe it is important to note that no additional water will 
be drawn from the American river system as a result of this 
project. The two supply lines will be used to supply the 
approved level of water to the City of Roseville and the San 
Juan Water District.
    The total cost of the project is estimated to be $12.1 
million. The City and San Juan Water District will complete a 
predesign study. The United States Bureau of Reclamation staff 
will start the design of the parallel line, utilizing staff 
located in Denver, and paid for through the $500,000 
appropriation in the 2003 Omnibus Bill.
    In addition we are asking for an additional $1.6 million 
energy and water appropriation in Fiscal Year 2004 to complete 
the design. The construction phase of the parallel pipeline 
will be approximately $8 million. Rehabilitation of the 
existing line is estimated at $1.9 million. The estimated time 
for completing this project is 4 years.
    Mr. Chairman, thank you for your time. Again, we would like 
to thank Congressman Doolittle for his work on this 
legislation, and the City encourages the Subcommittee on Water 
and Power to report favorably on H.R. 1794.
    I guess at this point--this is my first time--I would ask 
for my written comments to be entered into the record and I 
would be happy to answer any questions.
    Mr. Calvert. Without objection, so ordered.
    [The prepared statement of Mr. Rockholm follows:]

           Statement of The Honorable Rocky Rockholm, Mayor, 
              City of Roseville, California, on H.R. 1794

    Mr. Chairman and distinguished members of the Committee, my name is 
Rocky Rockholm and I am the Mayor of the City of Roseville, California. 
I appreciate the opportunity to appear before this Committee today 
regarding H.R. 1794, a bill providing authorization for construction of 
a parallel water supply line and rehabilitation of existing federal 
facilities at Folsom Dam.
    I wish to begin by thanking you and the members of the Subcommittee 
on Water and Power for holding this hearing this afternoon. The 
citizens of the City of Roseville need your assistance in helping us 
meet the water supply and water security needs of our region. We 
appreciate this Committee's commitment to ensuring a safe and reliable 
water system in the United States.
    On behalf of the City of Roseville, I also wish to thank 
Congressman John Doolittle for his leadership and for introducing H.R. 
1794. Congressman Doolittle has served his constituents and the nation 
well since first being elected over a decade ago. Roseville is proud to 
have Congressman Doolittle represent us in the United States Congress, 
and we appreciate his commitment to our City, our region, the State of 
California, and the United States of America.
    The City of Roseville is located 20 miles east of Sacramento and 
has a population of approximately 86,000 residents. Roseville is 
expected to be home to approximately 110,000 residents by 2010 when all 
of the currently-entitled residential property is developed. Our 
community has experienced unprecedented growth during the past decade, 
and I believe the City has efficiently and effectively discharged its 
duties to our new and long-standing residents in spite of the 
significant pressures of rapid growth.
    In addition to carrying out the primary functions of local 
government, I believe we have successfully safeguarded our local and 
regional history while responsibly planning and delivering critical 
projects for our long term economic health. For example, the City has 
worked with the local Maidu tribe to preserve the Native American 
history of the area in cultural centers and museums and with Union 
Pacific to develop the largest rail yard of its kind west of the Omaha 
and the most modern rail yard in the United States.
    Of course, a primary local government function is to reliably 
deliver clean drinking water. The City has worked closely with the U.S. 
Bureau of Reclamation and the San Juan Water District to properly 
discharge this function. We are now faced with a major challenge 
related to our water supply, and we need this Committee's assistance to 
ensure our water service remains safe and reliable.
    The City's current drinking water system relies on a single 84-
inch, 3,500 foot pipeline owned and operated by the United States 
Bureau of Reclamation (USBR). The pipeline delivers up to 216 million 
gallons of raw water each day from Folsom Reservoir to the City of 
Roseville and the San Juan Water District--120 million gallons to the 
San Juan Water District and 96 million gallons to the City of 
Roseville. After treatment, the respective agencies serve water to over 
250,000 customers per day in Sacramento and Placer Counties. The 
pipeline is the only raw water supply line to the City and the San Juan 
Water District. Without it, we would be unable to provide the citizens 
of our region with a safe and reliable drinking water supply.
    My friend, Jim English of the San Juan Water District, will 
describe the specific findings of the 2000 pipeline inspection. The 
important point to remember is this: the region's only drinking water 
supply is in jeopardy and could soon fail unless the existing 
infrastructure is rehabilitated.
    There are two main reasons why the parallel pipeline is necessary. 
First, rehabilitation will require the sole existing pipeline to be 
taken out of service for several weeks or even months. A parallel 
pipeline must be constructed to provide the agencies raw water while 
the existing pipeline is out of service. The parallel pipeline is the 
only means by which we will be able to deliver water to our citizens 
without interruptions.
    Second, the parallel pipeline will provide a redundant water supply 
to 250,000 daily customers, significantly improving the security and 
reliability of the facility. In light of recent events that have 
demonstrated real threats to the security of our nation's 
infrastructure, it is essential that we update our systems by building 
in redundancies. H.R. 1794 provides the City of Roseville with this 
added security. While this benefit is ancillary, it is very important.
    As a California mayor, I am sensitive to water usage issues and I 
believe it is important to note that no additional water will be drawn 
from the American River system as a result of this project. The two 
water supply lines will be used to supply the approved level of water 
to the City of Roseville and the San Juan Water District.
    We anticipate that the total cost of the project will be $12.1 
million. The City and the San Juan Water District will complete a 
$100,000 pre-design study. The USBR Denver office will start the design 
of the parallel pipeline using $500,000 earmarked in the Fiscal Year 
2003 Omnibus Appropriations Bill. An addition, we have requested an 
earmark of $1.6 million in the Fiscal Year 2004 Energy and Water 
Appropriations Bill that will be used to complete the design of the 
project. The construction phase of the parallel pipeline will require 
$8 million and the rehabilitation of the existing pipeline will cost 
$1.9 million. We expect the project to be complete in four years, 
including design, construction, and rehabilitation.
    Mr. Chairman, in closing I would once again like to thank you and 
your colleagues for holding this hearing today. We understand that your 
Committee is extraordinarily busy, and the fact that this hearing has 
occurred underscores your commitment to ensuring the safety and 
security of Americans. We also again wish to thank Congressman 
Doolittle for all his work on this legislation and on behalf of the 
City of Roseville.
    The City of Roseville urges the Subcommittee on Water and Power to 
report favorably on H.R. 1794 as soon as possible. I would be happy to 
answer any questions you or your colleagues on the Subcommittee may 
have. Once again, thank you.
                                 ______
                                 
    [The diagram follows:] 

    [GRAPHIC] [TIFF OMITTED] T7903.001
    

    Mr. Calvert. Next, Mr. Jim English, the General Manager of 
San Juan Water District. Mr. English.

          STATEMENT OF JIM ENGLISH, GENERAL MANAGER, 
              SAN JUAN WATER DISTRICT, CALIFORNIA

    Mr. English. Mr. Chairman, this is exciting stuff for me. I 
am a water guy, and as I look around the table and notice we 
all have glasses and pitchers, this is a pretty big deal for 
me. I want to thank the Committee also for allowing me to come 
back here and talk on H.R. 1794. It is a big issue for us, and 
it is nice to see Government doing its job with regard to safe 
water, reliable water supply. A very important issue to me.
    I also want to thank Congressman Doolittle, who has worked 
so hard in our region to provide a safe and reliable water 
supply. He has just done that over and over again. It has been 
his agenda for many years. We are very proud to have him back 
here representing us.
    I have written testimony. Hopefully that has been 
submitted. If not, I would ask that it be submitted.
    Mr. Calvert. Your testimony has been submitted and it will 
be entered into the record without objection.
    Mr. English. Thank you.
    We are a community services district formed in 1954, and we 
purchased the North Fork Company which goes back to 1853, so we 
have a long history of even pre-Folsom Dam. We completely 
understand the construction, what went on back then, and where 
we are today.
    I would like to talk on a couple of points that Mr. Rinne 
spoke about, in particular, going back to when the meetings 
were held with the Bureau of Reclamation. These were important 
meetings. And I would also like to acknowledge that we have a 
good working relationship with the Bureau and we understand 
there are budget constraints there. In those meetings with the 
Bureau, held following their inspection of the pipeline where 
serious problems were found, it was the Bureau that contacted 
us and asked that we consider doing something that we had done 
in the past, and that was to prefund facilities for the Bureau, 
come back to Congress and seek some sort of reimbursement. This 
is a much bigger issue. This is an issue that is--$12 million, 
very difficult for a district whose annual budget is $10 
million, to sell that to the board. We did promise however to 
come back and see if we could do something to increase their 
budget so that it was no impact to the Bureau. That was the 
promise that was made.
    I would like to talk about some previous issues with the 
Bureau, where they did not have knowledge of a difficult 
situation. One was Gate No. 3, it happened some years back, 
when it failed. Not just tens of thousands, but hundreds of 
thousands of acre-foot of water supply free fell from Folsom 
Dam into the American River and out into the delta. That was a 
condition they did not know about, but it was a failed 
condition. There was not 2 years following that when the Bureau 
had isolated and shut down the 84-inch valve to this pipeline, 
and it was stuck closed, no water coming into the district. The 
Bureau had no knowledge that that would happen, but 
nevertheless a failed situation where no water supply was 
coming in. Those two projects to go back and fix Gate No. 3 and 
the failed valve cost three to five times what it would do 
under normal planning conditions.
    I think the Bureau recognizes and we recognize, we now know 
that we have a pipeline, a single pipeline coming in that 
serves more than a quarter of a million people that will fail. 
It has a 5- to 10-year window, identified during their 
inspections. We have used up 3 of those years already. It is 
not a question of if, it is a question of when. Our greatest 
concern is that it will fail before there is a parallel 
pipeline in place.
    I would submit to you that back in 1954, '53, someone had 
to find a way to deliver water on a continuous basis while they 
constructed Folsom Dam, the pumping facility and a pipeline 
that went along with this today. All we are talking about is 
the parallel pipeline to which we are not looking for increased 
capacity, reserve capacity. We are recognizing that the only 
way that they are going to be able to go in and do the 
maintenance required is to build a secondary pipeline.
    So I urge you to move quickly on H.R. 1794. Thank you once 
again for the opportunity to speak with you.
    [The prepared statement of Mr. English follows:]

              Statement of Jim English, General Manager, 
                 San Juan Water District, on H.R. 1794

    Mr. Chairman and distinguished members of the Committee, my name is 
Jim English and I am the general manager of the San Juan Water District 
located in the greater Sacramento metropolitan area. I appreciate the 
opportunity to testify today regarding H.R. 1794, a bill authorizing 
construction of a parallel water supply line and rehabilitation of 
existing federal facilities at Folsom Dam.
    I would like to thank you and the members of the Subcommittee on 
Water and Power for holding this hearing this afternoon. This hearing 
is an important milestone in the progress of H.R. 1794 and demonstrates 
your dedication to a safe and secure water system in our region and 
throughout the United States. Ensuring a safe and reliable drinking 
water system is a fundamental responsibility of government, and we 
appreciate your efforts to effectively and efficiently carry out that 
responsibility.
    On behalf of the San Juan Water District, I also wish to thank 
Congressman John Doolittle for his dedication to guaranteeing that a 
safe and reliable water system is provided to his constituents and our 
region. The San Juan Water District appreciates all of Congressman 
Doolittle's efforts on our behalf and we are honored to have him 
represent us in the United States Congress.
    The San Juan Water District is a community services district 
created by a vote of the citizens in 1954. The district is committed to 
ensuring the delivery of a reliable water supply of the highest quality 
at reasonable and equitable costs to all of its customers. The district 
wholesales water to Citrus Heights and Fair Oaks water districts, 
Orangevale Water Company, the City of Folsom, and periodically to 
Sacramento Suburban Water District. Additionally, water retail services 
are provided to customers in Granite Bay and the northeast portion of 
Sacramento County.
    San Juan Water District is located 30 miles east of Sacramento and 
serves a population of approximately 160,000 residents within an area 
of 28,800 acres.
    The United States Bureau of Reclamation (USBR) delivers 216 million 
gallons of raw water per day to the City of Roseville and the San Juan 
Water District. The San Juan Water District receives 120 million 
gallons of this water each day to serve our customers. The raw water is 
delivered through a single pipeline that is owned and operated by the 
USBR. Once the City and the SJWD treat the raw water, it is delivered 
to over 250,000 customers each day in Sacramento County and Placer 
County.
    The existing 84-inch, 3,500 foot long pipeline was inspected in 
2000. The inspectors found cracked lining and rust when the lining was 
removed. The above ground exterior surfaces of the pipe are now showing 
indications of coating failure and rust. The interior cement caulked 
joints have softened and failed. There is also extensive rusting of the 
steel beneath the joints and significant corrosion throughout the 
pipeline. The coal tar lining failures are expected to accelerate over 
time. USBR estimates that the pipeline will most likely fail within 
five to ten years of the inspection without extensive rehabilitation.
    H.R. 1794 would authorize the construction of a parallel pipeline 
and the rehabilitation of the existing pipeline. The parallel pipeline 
is essential as it will allow the City of Roseville and the San Juan 
Water District to continue delivering water to our users while the 
existing pipeline is out of service during rehabilitation. Without the 
new pipeline, our customers would experience service outages from 
several weeks to months while the existing pipeline is being 
rehabilitated. This is unacceptable.
    Once operational, the parallel pipeline will also serve as a 
redundant water supply line, thus significantly enhancing the security 
and reliability of the entire facility. Access to two water delivery 
systems will help us protect our water supply and infrastructure. This 
increased security measure is particularly important in light of 
current and future threats to our infrastructure.
    Water supply is of great interest in our region, and new water 
infrastructure projects sometimes can be of concern. In this case, 
however, I can report that the new pipeline will have no impact on the 
amount of water being drawn from the American River. The two raw water 
supply lines will be used to deliver the approved level of water to our 
customers.
    The project will cost a total of $12.1 million. The City and the 
San Juan Water District will complete a $100,000 pre-design study with 
local money. The design of the project will cost $2.1 million. An 
earmark of $500,000 received in the Fiscal Year 2003 Omnibus 
Appropriations Bill will be used by the USBR Denver office to start the 
design of the parallel pipeline. We have requested an earmark of $1.6 
million in the Fiscal Year 2004 Energy and Water Appropriations Bill to 
complete the design of the project. The construction phase of the 
parallel pipeline will require $8 million and the rehabilitation of the 
existing pipeline will cost $1.9 million. We anticipate that the 
project will take four years to complete.
    Mr. Chairman, I would like to thank you and your colleagues once 
again for holding this hearing today on H.R. 1794. We understand that 
your Committee is extremely busy and we truly appreciate your 
commitment to ensuring the safety and security of America's water 
supply. The San Juan Water District again wishes to thank Congressman 
Doolittle for all his work on this legislation.
    The San Juan Water District strongly urges the Subcommittee on 
Water and Power to report H.R. 1794 favorably. I thank you for your 
assistance and I am happy to answer any questions you or Committee 
members may have.
                                 ______
                                 
    Mr. Calvert. I thank the gentleman for his testimony, and 
all the witnesses for their testimony.
    At this time I recognize Mrs. Napolitano for her opening 
statement.

  STATEMENT OF THE HON. GRACE F. NAPOLITANO, A REPRESENTATIVE 
                  FROM THE STATE OF CALIFORNIA

    Mrs. Napolitano. Thank you, Mr. Chair. I apologize for my 
late arrival. I had some pressing business, but I am looking 
forward to hearing the rest of the testimony. I have read some 
of the information. I concur these bills are very important, 
dealing with reclamation law.
    For Mr. Doolittle's bill, the question of the 
reimbursability of the project construction cost is really the 
major sticking point, if you will. With regard to Mr. Osborne's 
bill, we just need to understand whether the cooperative 
agreement among Wyoming, Nebraska and Colorado with the 
Department of Interior will also be extended, and if the 
agreement is not, then why do we need a bill.
    I look forward to the testimony. Thank you, sir.
    Mr. Calvert. Thank the gentlelady.
    Now on to some questions. Mayor Rockholm, Mr. English, as 
you mentioned in your testimony, your area has grown 
tremendously. And you also mentioned, for the record, how long 
will the pipeline serve your drinking water needs as they 
presently exist?
    Mr. English. As far as we are concerned, the pipeline is 
large enough to take care of future growth, not only what we 
have today but ultimate build-out.
    Mr. Calvert. Again for the record, so the additional 
pipeline, the primary purpose for that pipeline is maintenance 
and to make sure you have a redundancy in the system in case an 
emergency arises?
    Mr. English. Correct. If they can find another way of 
getting water supply to us while they do the rehabilitation, 
that is OK with us.
    Mr. Rockholm. I would like to add that the current water 
supply that we are asking for, 96 million gallons a day would 
take care of our build-out per our general plan and specific 
plans. I think what it would afford us though is the 
opportunity to work closely with the Bureau of Reclamation to 
keep that system rehabilitated because we would have the 
ability to turn off one line, work on the other line, or 
whatever needed to be, with the Bureau. I think it would 
provide the opportunity to be proactive versus reactive. In 
other words, find a problem, fix it before it actually becomes 
a catastrophic event.
    Mr. Calvert. At the present time, what is the City of 
Roseville's budget for water delivery infrastructure?
    Mr. Rockholm. May I defer that answer to Derek Whitehead, 
our Environmental Utilities Director?
    Mr. Calvert. Certainly. For the record, please state your 
name and position.
    Mr. Whitehead. My name is Derek Whitehead. I am the 
Director of Environmental Utilities for the City of Roseville.
    We have two different budgets that we work from. We have an 
operations budget that is about $9 million a year. And then we 
also have a capital budget which we use to construct new 
infrastructure, expanding to meet the needs for new growth that 
we have, and that is money that is collected from those folks 
when they tie into our system. So during that timeframe we have 
the ability to build new infrastructure in our system, but have 
not anticipated building infrastructure for the Bureau of 
Reclamation.
    Mr. Calvert. Mr. Rinne, does the Bureau presently own and 
operate any reserve pipelines.
    Mr. Rinne. Mr. Chairman, you mean reserve pipelines other 
places?
    Mr. Calvert. Yes.
    Mr. Rinne. I am just thinking. We had one in Las Vegas. We 
turned that over in a title transfer. I am not sure just off 
the top of my head if there might be other areas where we have.
    Mr. Calvert. For the record, could you look into that and 
inform the Committee. We will hold the hearing record open, and 
you can submit that for our information.
    Mr. Rinne. I will do that, Mr. Chairman.
    Mr. Calvert. As far as you know, has there been a 
longstanding Bureau policy on not fronting reserve capacity 
pipelines?
    Mr. Rinne. I do not think it is so much the policy here, 
but in this particular case, Mr. Chairman, it is not whether 
there should be a reserve one, but just the idea that the 
authority we have, and we figure it is our responsibility in 
the maintenance on the initial one, but not to have a reserve 
one. So it is more what the practice would be. There is no 
policy I am aware of that says we would not do reserve ones.
    Mr. Calvert. The pipeline itself, what is the normal life 
span of a pipeline such as this?
    Mr. Rinne. This is a steel one. I think it has an epoxy-tar 
coating on the inside. It is above ground. And what I do know 
is, as kind of a minimal maintenance check, we thought probably 
need replacement in the next 5 to 10 years. So if you figure 
that was put in in the '50's, so you can see that you are over 
50 years in the pipe.
    Mr. Calvert. Just asking this question again for the 
record. If there was a failure tomorrow on that pipeline, whose 
responsibility is that to fix and repair?
    Mr. Rinne. From the maintenance standpoint the Bureau of 
Reclamation would have to do that.
    Mr. Calvert. If there is a total failure of the line, whose 
responsibility would it be to replace?
    Mr. Rinne. It would be my understanding that we would have 
to take on the maintenance responsibility to deal with an 
emergency situation.
    Mr. Calvert. So if in fact that did occur, would you be 
forced into building a parallel line in order to build a new 
line?
    Mr. Rinne. Mr. Chairman, I do not know. I mean, obviously 
we would try to deal with it. I do not know if we would take 
that step or not.
    Mr. Calvert. Would the City of Roseville have a secondary 
water supply of water to--and this is for any of the witnesses 
if they know the answer to this--if in fact there was a total 
failure of water on that line, is there a secondary source of 
water to supply the City?
    Mr. Rockholm. It is my understanding we have enough well 
capacity for a very short period of time, but it would not be--
we would not be able to sustain ourselves over a long period of 
time.
    Mr. Calvert. Thank you.
    Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chairman.
    A question to either one of the gentleman from Roseville. 
Do any of your customers currently have water meters? Are they 
being charged for water?
    Mr. Rockholm. I would be glad to answer that question. Yes, 
they are. New construction, most of the homes in Roseville that 
are newer, from 1998 or above, all have the water meters, and 
we are currently going through a water meter retrofit program 
right now, and our plan is for the next 5 to 10 years, to have 
everybody in the City converted to water meters.
    Mrs. Napolitano. So in other words, only the newer, since 
1998 are on water meters and being charged for water usage, or 
is it a flat rate?
    Mr. Rockholm. It is still a flat rate, but most of the 
customers will be getting bills. But we have also started 
converting some of the older areas. Some of the older areas now 
have water meters. Then we are going to do 1 year of flat rate, 
monitoring their usage, and then give them that bill history 
and then start charging them.
    Mrs. Napolitano. I explained to you that one of my 
relatives lives in the Roseville area, and they have been 
getting fake bills. They have not been charged for water, and 
they have been there over 10 years. And it is a question about 
reimbursement, is what I am concerned about.
    To Mr. Rinne, is there any precedent to this type of 
legislation requesting the Bureau to build an alternate 
delivering service?
    Mr. Rinne. Not that I am aware of, Congresswoman, but I 
would prefer to check into that.
    Mrs. Napolitano. But just off the top of your head, you do 
not know of any. My concern is the bill is silent on the 
reimbursability, which is, I am assuming, a fundamental 
reclamation law.
    Mr. Rinne. We would think that it would have to be either 
integrated into the CVP repayment, you know, as reimbursable 
cost, or it would have to be identified as a separate repayment 
responsibility for the Roseville and the San Juan District.
    Mrs. Napolitano. So in other words, even if this were 
approved, you would still require a refund from the community 
itself.
    Mr. Rinne. Let me go slower and clearer. This is my first 
time too and I am probably tripping over some of my thoughts 
here.
    Mrs. Napolitano. That is OK, so am I.
    Mr. Rinne. I will just take my time with it, but with the--
my thought would be that if in fact it would decide to be--we 
see reimbursement on our projects. The answer to that is yes. 
If it were in fact to be reimbursable, we would expect that 
that would be integrated fully with CVP repayment, which means 
it would be spread over other repayment contractors in the CVP 
area, or alternatively I guess it could be clearly separated 
and then have the repayment cost be specifically for San Juan 
and for Roseville.
    Mrs. Napolitano. There are other questions that I think I 
will like to ask the City of Roseville. If they have considered 
alternatives of actually San Juan District, alternatives to 
take care of the pipeline rehabilitation without having to 
construct a parallel pipeline? No alternatives?
    Mr. Whitehead. The dilemma is, is that that is a single 
source of supply, and to be able to work around from the pump 
station to where we have redundancy in our system. There is 
really no way to work around it unless you put a parallel 
pipeline with it. So we have talked with the Bureau about 
having different alternatives, but that was the primary one, 
and for us to construct like, for example, groundwater wells or 
things of that nature, it would take about the same amount of 
money for us to do the same thing that they are asking for, for 
the parallel pipeline.
    Mrs. Napolitano. And the distance of the pipeline would be 
how long?
    Mr. Whitehead. It is about 3,500 feet, about three-quarters 
of a mile.
    Mrs. Napolitano. Three-quarters of a mile. Is there 
identification of the areas that are becoming problematic or 
has the whole pipeline been found to be not useful?
    Mr. English. I have seen, I have actually watched the 
entire painful video of the Bureau's inspection. And we have 
also had our own engineers take a look at it. The spalling of 
the concrete joints happened all along the pipeline. Generally 
once a pipeline begins to fail, it begins to completely fail. 
There are two problems. One is the joints themselves, the 
spalling of the concrete. The second is that--actually, three. 
The coal tar enamel is dissociating itself from the pipeline, 
which then causes a third problem called electrolysis, where 
the pipeline pits itself, becomes very thin, and then at that 
point can fail.
    Mrs. Napolitano. And you start having leaks?
    Mr. English. Yes.
    Mrs. Napolitano. I will pass, but Mr. Chair, I will come in 
on the next round.
    Mr. Calvert. All right.
    Mr. Osborne?
    Mr. Osborne. Are these questions restricted to H.R. 1794? I 
will pass at this point.
    Mr. Calvert. OK. We will come back to H.R. 2040 in a 
moment.
    Mr. Osborne. I will pass on H.R. 1794.
    Mr. Calvert. I just have a couple of other questions on 
this legislation, and then we will move ahead.
    The pipeline itself, again, Mr. Rinne, I just want to carry 
on our line of questioning before. If in fact there was a total 
failure of that line, you are not disputing the fact that the 
Federal Government would be responsible for probably the 
replacement of that line. And in order to replace that line you 
are in effect going to have to build a whole new line which in 
an emergency situation, would that cost more? What is the 
normal scenario in something like this? If you had a failure 
tomorrow and you had a total disconnect with the City of 
Roseville, and we are in emergency mode here, would things cost 
more than it normally would?
    Mr. Rinne. I suppose they could. I think that what the 
approach, Mr. Chairman, would be that it depends on what the 
failure was. In other words, could there be a repair and then 
move from that to a longer term fix. Certainly in an emergency 
case we would do whatever we had to do to reestablish that. I 
would only be speculating to say what that would be, or the 
cost.
    Mr. Calvert. Now, again on this legislation, there are 
different interpretations on how this bill will be paid for. 
What is your interpretation?
    Mr. Rinne. Well, I noticed that the legislation was silent, 
at least the version that I read, on whether it was 
reimbursable or not.
    Mr. Calvert. Mayor Rockholm, Mr. English, you met with the 
Bureau early on in this process. Do you agree with the Bureau's 
assessment that would be local funding only for this project?
    Mr. English. I was in those meetings. I do not.
    Mr. Calvert. Mr. Rockholm, were you--
    Mr. Rockholm. I was not in those meetings. I just know what 
I have been briefed by Mr. Whitehead and Mr. English.
    Mr. Whitehead. I was also in the meeting and did not hear 
anything of the local partners' cost sharing. It was more of a 
concern that we would go after some type of reimbursement in 
Washington or some other source.
    Mr. Calvert. This is for all the witnesses, and my last 
question on this issue. Are you opposed to a cost share or a 
strict beneficiary pays provision title transfer? Any of those 
issues, have they been brought to the table or talked about?
    Mr. Rockholm. Speaking for the City of Roseville, I have 
not heard any talks of any particular way of going, but from 
the City of Roseville's standpoint, we just lost over 9.6 
million in a utility user's tax, and like everybody else, I 
mean, I am not here to cry poor mouth, but we are kind of in 
between a rock and hard place. But we would not be opposed to a 
title change after it was constructed that we would take over--
in other words, it would be like buying a car. You want the car 
in the best shape we can, and we will drive it from there and 
we will take care of it.
    Mr. Calvert. So if in fact there was a parallel line built, 
you are saying that you would take that transfer, and from that 
point forward maintain the entire system?
    Mr. Rockholm. Yes, that is exactly what I am saying.
    Mr. English. Mr. Chair, I have to think. With the two 
failures that have already occurred, the Gate No. 3 which was a 
substantial cost, and with the valve failure, that in all 
likelihood those costs were spread out over the Central Valley 
Project. I also want to make clear that in our rates that we 
pay the Bureau of Reclamation, we pay on a Central Valley 
Project wide basis. So much of what we pay for is in other 
areas for projects that we are not aware of. So under that 
condition, that is a pretty good cost-sharing arrangement. It 
is one that we are used to.
    Mr. Calvert. Thank the gentlemen.
    Mrs. Napolitano, any other questions?
    Mrs. Napolitano. I would argue also that most cities in my 
district also have to pay their cost share, and it is for 
districts statewide. And Southern California has the greatest 
number of taxpayers and rate payers, so we paid for a lot of 
the water bonds and get very little of the benefit. So you can 
say that there is the other side of it.
    I have several questions that are concerning the water 
itself in regards to an article that appeared that the water 
purchase agreement that the council approved in the San Juan 
Water District, which allows the 3,200 acre feet of raw water 
supplied someone by the Placer County Water Agency. This is 
supposedly, according to the article, being done to speed up 
the annexation west of the City. Is that going to affect your 
water delivery, your purchase of water, your ability to be able 
to continue using that same system?
    Mr. English. No. The amount of that water supply is 
factored into our district's contract with Placer County Water 
Agency. So it does not change our ultimate growth, our ultimate 
build-out. It is simply a transfer from one agency to another, 
and does not impact any further deliveries through that 
pipeline.
    Mrs. Napolitano. What is the current population of 
Roseville?
    Mr. Rockholm. We are at 86,000 plus.
    Mrs. Napolitano. It has grown quite a bit.
    Mr. Rockholm. Build-out should occur around 2010. It will 
be about 110,000 plus.
    Mrs. Napolitano. And you think this will be adequate to 
provide services for that growth?
    Mr. Rockholm. All these numbers are based on our ultimate 
build-out, and we are even looking at groundwater recharge of 
storing water instead of letting it run downstream and flood, 
is trying to capture that, or even put new water into the 
ground and save it for the rainy day, so to speak.
    Mrs. Napolitano. Excellent. That is a lot of what we have 
done in Southern California, storage, and recycling. I do not 
know if you have looked into that because that is also another 
alternative that is being utilized where we have very little 
water to rely upon.
    Mr. Chair, that is it for me. Thank you.
    Mr. Calvert. Thank you.
    Now, Mr. Osborne, you may ask your questions relating to 
H.R. 2040.
    Mr. Osborne. Thank you. I think Ms. Napolitano had a 
question maybe as to the necessity for this bill, and I thought 
I might just give you a little background. H.R. 2040 is being 
crafted in response to a cooperative agreement between 
Colorado, Wyoming and Nebraska that was entered into in 1997. 
This cooperative agreement was necessitated by a ruling, Fish 
and Wildlife, declaring 50 miles of Platte River, Central 
Platte River in Nebraska as being critical habitat for the 
whooping crane, even though it may be only 1 percent of the 
whooping crane population visits that 50-mile stretch, for the 
piping plover and the least tern, and there is no evidence of 
any natural reproduction of these species in that 50-mile 
stretch, and for the pallid sturgeon, which resides in the 
Missouri River, 200 miles away.
    So some of us are not real thrilled with this whole 
project, but what has happened is these three states are 
required now to come up with 150,000 acre feet of water to be 
run through that 50-mile stretch in the Platte River in 
accordance with what Fish and Wildlife says would approximate 
flows maybe 100 years ago. So there are pulse flows. Some are 
high in the spring, low in the summer and so on. So to get that 
150,000 acre feet of water set aside, this cooperative 
agreement has occurred. Nebraska furnishes 100,000 acre feet, 
Wyoming roughly 40,000 acre feet, Colorado about 10,000 acre 
feet. So originally this cooperative agreement was started in 
1997. It was assumed that it would be completed in 2000. It was 
not, so it was extended from 2000 to 2003, and now we find it 
is still not done. So we are now going to go from 2003 to 2005 
or whatever, and the problem is that we have eight irrigation 
districts that take water out of Glendo Dam, which is upstream, 
which has to furnish some of this water. So we have eight 
irrigation districts that need renewal of their water rights 
and until this cooperative agreement is finished, there is 
really not a whole lot they can do.
    What we are doing is we are simply asking that these water 
rights for these eight irrigation districts be renewed until we 
do complete the cooperative agreement in 2005. So it is mainly 
because of the Endangered Species Act, Fish and Wildlife and 
this cooperative agreement that we are having to do this. And 
it is my understanding that the Department of Interior supports 
this. Maybe one of the first times that this has happened in 
the last couple of years, so we are delighted that you support 
this, and we certainly urge its adoption.
    Mr. Calvert. As you recognize, Mr. Osborne, the Department 
of Interior lately has not been supporting a lot of things we 
bring up over in the Committee, so this is refreshing news. We 
are happy to have the support of this excellent legislation, 
look forward to marking this bill up shortly and passing it and 
moving forward and get this extension placed in law.
    With that, are there any other questions for this panel? 
Mr. Renzi, you have any questions?
    Mr. Renzi. Thank you, Mr. Chairman.
    I wanted to go back if I could, just one quick question on 
H.R. 2040. When the pipeline begins to deteriorate like it is, 
the way it is described here in the narrative, I was thinking 
back to a case in Arizona where we had the old copper pipes. I 
know this is steel. But have you seen any higher levels of 
carcinogenics in the water, or there is a threat at all to the 
public, particularly the lining on the inside?
    Mr. English. I can speak, being in the water business for a 
number of years, when we see this kind of an action occurring 
in a pipeline, it is generally caused by electrolysis and that 
is simply the movement of water through a pipeline, a conduit. 
It creates a situation more like a battery where opposites 
attract. Metal begins to leave, and that is how the pitting 
occurs. So it is not caused by carcinogenics. It is not caused 
by any chemicals in the water. It is simply an actual reaction.
    Mr. Renzi. So the water that people are drinking in that 
area is not contaminated in any manner or threatened to be?
    Mr. English. We are very blessed with some of the finest 
water supplies in the United States.
    Mr. Renzi. You just need a new pipe?
    Mr. English. Yes.
    Mr. Calvert. Thank the gentleman.
    One other issue brought up, so I think I will ask the 
question, because I think when we are up north, this may be 
something we will be discussing. On the issue of reusability, 
is the CVP water used for environmental needs nonreimbursable 
or is it paid for by the CVP water and power contractors?
    [Pause.]
    Mr. Rinne. Thank you for waiting for me there, Mr. 
Chairman. If it is for environmental purposes it is generally 
nonreimbursable. If that is not the case, and it would go for 
CVP-wide purposes, it would be reimbursable.
    Mr. Calvert. Why is it nonreimbursable for environmental 
purposes?
    Mr. Rinne. We are not sure. I would only be speculating. 
Whether that came out of the CVP Act, if it was just passed 
that way. That is what I would, I would think, but I better--
    Mr. Calvert. Mr. Rinne, again, this is open for the record. 
If you could get back to us on that in writing and get back to 
us if in fact there is legislative purpose behind that or if it 
is administrative.
    Mr. Rinne. OK.
    Mr. Calvert. Certainly, I think there are people talking 
about making those costs nonreimbursable.
    Any other questions?
    [No response.]
    Mr. Calvert. Hearing none, we are adjourned. Thank you, 
panel, for coming out today, and we appreciate it. We are 
hereby adjourned.
    [Whereupon, at 2:51 p.m., the Subcommittee was adjourned.]

    [A letter submitted for the record on H.R. 2040 by The 
Honorable Mike Johanns, Governor, State of Nebraska, follows:]

[GRAPHIC] [TIFF OMITTED] T7903.002

[GRAPHIC] [TIFF OMITTED] T7903.003


</pre></body></html>
